U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




            Office of the Secretary


             Further Actions Needed
             to Enhance Commerce’s
                 Acquisition Human
                       Capital Plan

                Final Report No. OIG-12-015-A
                           December 21, 2011




             FOR PUBLIC RELEASE 



                Office of Audit and Evaluation
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington. D.C. 20230



 December 21, 2011

MEMORANDUM FOR:



FROM:


SUBJECT:                       Further Actions Needed to Enhance Commerce's Acquisition
                               Human Capital Plan
                               Final Report No. OIG-12-015-A

This memorandum provides our final audit report detailing the results of our review of the
Department's FY 2010 Acquisition Human Capital Plan (AHCP). Our objective was to assess
the adequacy of the Department's FY 2010 plan for determining its acquisition workforce needs
and progress for implementing actions to address those needs. This report presents the findings
and recommendations of this review, conducted under the authority of the Inspector General Act
of 1978, as amended, and Department Organization Order 10-13, dated August 31, 2006.

The Department has developed an AHCP to establish a more efficient and effective workforce.
We acknowledge OAM' s challenges in developing this plan while experiencing turnover in its
leadership. However, we found that the Department must take further actions to enhance the
AHCP. Specifically, we noted issues with (1) unreconciled baseline counts of the acquisition
workforce staff; (2) insufficient methodologies for forecasting workforce requirements; (3) the
establishment of time frames or milestones for assessing progress toward achieving identified
action strategies; and (4) coordination ofbudget requests, especially considering full-time
equivalent counts.

We have received your December 5 response to our draft report. Where appropriate, we have
modified this final report based on this response and discussions with OAM subsequent to the
issuance of the draft report. The formal OAM response is included as an appendix. The final
report will be posted on the OIG's website pursuant to section 8L of the Inspector General Act of
1978, as amended.

In accordance with the Department Administrative Order 213-5, within 60 days of the date of
this memorandum, please provide us with an action plan that responds to all of the report
recommendations.

We would like to express our thanks to your staff for the courtesies shown to us during our
review. Please direct any inquiries regarding this report to me at (202) 482-2754 and refer to the
report title in all correspondence.

Attachment
cc: 	   Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration
        Michael L. Palensky, Chief, Acquisition Division, Census Bureau
        Cecelia Royster, Chief, Acquisition Management Division, NIST
        Mitchell J. Ross, Director, Acquisition and Grants Management Office, NOAA
        Kate Kudrewicz, Director, Office of Procurement, USPTO
        Virna Winters, Director, Acquisition Workforce and Policy Division
        Darryl Anderson, Director, Acquisition Solutions Division
        Karen Hardy, Office of Program Evaluation and Risk Management
                                    Report In Brief
                                           U.S. Department of Commerce Ofﬁce of Inspector General
                                                                  December 21, 2011

Why We Did This Review                     Ofﬁce of the Secretary
In response to a new law help-
ing civilian agencies fortify their        Further Actions Needed to Enhance Commerce’s
acquisition workforce, the Ofﬁce of        Acquisition Human Capital Plan
Management and Budget (OMB)                (OIG-12-015-A)
issued its plan for agencies on
October 27, 2009, providing a
structure for agencies to bolster the
skills of their acquisition work-          What We Found
force. A key element of OMB’s
plan was to require each civil-
ian agency covered by the Chief         The Department’s 5-year AHCP for FYs 2010–2014 discusses its challenges and the steps it
Financial Ofﬁcers Act, beginning        has taken and plans to take to strengthen its workforce. We acknowledge OAM’s challenges
in 2010, to submit an annual 5-year     in developing this plan while experiencing turnover in its leadership. However, the plan lacks
Acquisition Human Capital Plan          the following three critical program elements:
(AHCP) to OMB by March 31.
The ﬁrst AHCP identiﬁes speciﬁc             • 	 Reconciled baseline stafﬁng data identifying the agency’s entire acquisition work-
strategies and goals for increasing             force. Although it relied on a human resources report to arrive at its baseline number of
both the capacity and capability of             contracting ofﬁcers working in the Department, OAM’s numbers did not match. Also,
its respective acquisition workforce            each bureau procurement ofﬁce submitted separate baseline acquisition workforce staff-
for ﬁscal years (FYs) 2010–2014                 ing ﬁgures; we found signiﬁcant differences between the bureau ﬁgures and those OAM
and requires agencies to use this               developed. Without process controls over the maintenance of documentation and the
information to address acquisition              reconciliation of differences, OAM’s calculations of baseline stafﬁng levels by job series
workforce needs in their annual
                                                are not reliable.
budget submissions.
The objective of our audit was to           •   	Sufﬁcient methodologies for determining the size and composition of the future ac-
assess the adequacy of the Depart-               quisition workforce. Rather than developing stafﬁng projections by individual bureau
ment’s FY 2010 plan for determin-                procurement ofﬁces—to highlight speciﬁc differences between its plans and the bureau
ing its acquisition workforce needs              plans—OAM projected stafﬁng requirements only from a single Department-wide per-
and progress for implementing                   spective. The assumptions and data OAM used in projections were incomplete, raising
actions to address those needs.                 concerns about the validity of the projected acquisition workforce requirements.
                                            • 	 Time frames and milestones for action strategies. OAM’s March 2010 AHCP included
Background                                      32 action strategies to accomplish 10 program goals under the following four broad
                                                categories: Workforce Analysis and Projections, Recruitment and Retention, Training
Congress included provisions in the             and Development, and Monitoring Performance. However, OAM did not (1) establish
Duncan Hunter National Defense                  time frames or milestones for assessing progress toward achieving program goals and
Authorization Act for FY 2009
                                                strategies or (2) provide information on the status of the corrective action for 8 strategies.
(the Act) to help agencies develop
plans to increase the size of their     We also found that the requests for additional full-time equivalent (FTE) staff identiﬁed in the
acquisition workforce. Enacted          plan did not match individual bureaus’ FY 2012 budget submissions.
in 2008, the Act directed federal
agencies other than the Department
of Defense to develop a speciﬁc             What We Recommended
and actionable 5-year plan—an
Acquisition Workforce Develop-
                                        We recommend that the Director of OAM:
ment Strategic Plan—to increase
the acquisition workforce size and          1. 	 Establish formal guidance and procedures for determining baseline stafﬁng levels;
operate a government-wide acquisi-
                                            2. 	 Prescribe minimum documentation standards required by the bureaus’ procurement of-
tion intern program. It also outlined
a number of other plan require-                  ﬁces and OAM to support facts and ﬁgures contained in subsequent AHCPs;
ments, such as the development of           3. 	 Work with each bureau to establish acquisition human capital goals and measure prog-
a sustainable funding model to sup-              ress toward meeting those goals; and
port efforts to hire, retain, and train
an appropriately sized and skilled          4. 	 Work with the Ofﬁce of Budget to access Departmental acquisition workforce budget
acquisition workforce.                           data during the budget formulation process.
U.S. Department of Commerce                                                                               Final Report No. OIG-12-015-A

Office of Inspector General                                                                                           December 21, 2011



                                                                  Contents

Introduction ..................................................................................................................................... 1

Findings and Recommendations ..................................................................................................... 3

   I.     Acquisition Workforce Plan Lacks Key Elements ............................................................... 3

        A. Baseline Staffing Figures Provided by Bureaus Were Not Reconciled ........................... 3

        B. Methodologies Used to Forecast Workforce Requirements Were Insufficient ............... 4

        C. Milestones or Time Frames Are Needed in Order to Measure Progress ......................... 5

        D. FTE Numbers Contained in Budget Requests Were Prepared Without Coordination .... 6

   II. Conclusion ............................................................................................................................ 7

Summary of Department and OIG Comments ............................................................................... 8

Appendix A: Objectives, Scope, and Methodology ....................................................................... 9

Appendix B: Acquisition Workforce Definitions ......................................................................... 10

Appendix C: Response to OIG’s Draft Report ............................................................................. 11

U.S. Department of Commerce                                            Final Report No. OIG-12-015-A

Office of Inspector General                                                        December 21, 2011



                                          Introduction

Congress included provisions in the Duncan Hunter National Defense Authorization Act for
Fiscal Year 2009 (the Act) that were designed to help agencies develop plans to increase the size
of the acquisition workforce. Enacted in 2008, the provisions of Section 869 of the Act directed
federal agencies other than the Department of Defense to develop a specific and actionable five-
year plan—an Acquisition Workforce Development Strategic Plan—to increase the acquisition
workforce size and operate a government-wide acquisition intern program. Section 869 also
outlined a number of other plan requirements, such as the development of a sustainable funding
model to support efforts to hire, retain, and train an appropriately sized and skilled acquisition
workforce.

In response to the Act, the Office of Management and Budget (OMB) issued its plan for civilian
agencies on October 27, 2009, providing a structured approach for agencies to augment and
improve the skills of their acquisition workforce. A key element of OMB’s plan was to require
each civilian agency covered by the Chief Financial Officers Act, beginning in 2010, to submit
an annual 5-year Acquisition Human Capital Plan (AHCP) to OMB by March 31. The first
AHCP identifies specific strategies and goals for increasing both the capacity and capability of
its respective acquisition workforce for fiscal years (FYs) 2010–2014 and requires agencies to
use this information to address acquisition workforce needs in their annual budget submissions.

The Director, Office of Acquisition Management (OAM)—the Department of Commerce’s
senior procurement executive reporting to the Chief Financial Officer and Assistant Secretary for
Administration within the Office of the Secretary—is responsible for managing and enhancing
career development of the Department's acquisition workforce. OAM also has a Head of
Contracting Office who provides contracting support to all components of the Office of the
Secretary and reports directly to the Director, OAM. Within the Department, the following four
operating units have internal procurement offices with a senior bureau procurement official
responsible for carrying out the day-to-day functions of managing the contracting activity:
   •   National Oceanic and Atmospheric Administration;
   •   Census Bureau;
   •   Patent and Trademark Office; and
   •   National Institute of Standards and Technology.
The objective of our audit was to assess the adequacy of the Department’s FY 2010 plan for
determining its acquisition workforce needs and progress for implementing actions to address
those needs.

Procurement reforms, technological changes, budget constraints, and downsizing have placed
unprecedented demands on the acquisition workforce. Agencies now expect acquisition
professionals to have a much greater knowledge of market conditions, industry trends, and the
technical details of the commodities and services they acquire. For this reason, agencies that rely
heavily on acquisition stand to benefit greatly by developing strategic human capital plans that
define the capabilities that the workforce will need in the future—as well as strategies that can
help the workforce meet these capabilities. The Department must maintain an acquisition


                                                 1

U.S. Department of Commerce                                             Final Report No. OIG-12-015-A

Office of Inspector General                                                         December 21, 2011



workforce that can effectively oversee its expanding and complex contracts for goods and
services. Retention, recruitment, and retirement concerns—as well as the need to ensure a
competent workforce—pose risks to the Department’s ability to meet its future acquisition
workload demands. The acquisition function is critical to mission success as, historically, the
Department expends approximately one-third of its budget through the acquisition process.
Commerce obligated about $3 billion on contracts for goods and services in FY 2009.

The Department’s 5-year AHCP for FYs 2010–2014 discusses its challenges and the steps it has
taken and plans to take to strengthen its workforce. We acknowledge OAM’s challenges in
developing this plan while experiencing turnover in its leadership. However, the plan lacks the
following three critical program elements:
   •	 Reconciled baseline staffing data identifying the agency’s entire acquisition workforce;
   •	 Sufficient methodologies for determining the size and composition of the future

      acquisition workforce; and

   •	 Time frames and milestones for action strategies.
We also found that the requests for additional full-time equivalent (FTE) staff identified in the
plan did not match individual bureaus’ FY 2012 budget submissions.

The Department faces significant challenges in its efforts to increase the capacity and capability
of the acquisition workforce. In particular, because of potential shifting priorities and missions,
the Department may have difficulty predicting with any certainty the specific skills and
competencies required. This uncertainty becomes even more profound with significant budget
cuts looming over the next several years. Also, acquisition rules and regulations are changing,
making it difficult for agencies to predict future requirements of their acquisition workforce.
OAM will need to continue to diligently manage its AHCP implementation to meet these
challenges.




                                                 2

U.S. Department of Commerce                                             Final Report No. OIG-12-015-A

Office of Inspector General                                                         December 21, 2011



                               Findings and Recommendations

I.   Acquisition Workforce Plan Lacks Key Elements

In response to OMB guidance, the Department has developed an AHCP to establish a more
efficient and effective workforce. However, it must take further actions to improve the plan.
First, OAM and the bureau procurement offices had different baselines for projecting acquisition
staffing levels, and OAM did not reconcile these differences. Second, OAM projection
assumptions and data were incomplete, raising concerns about the validity of the projected
acquisition workforce requirements. Third, OAM did not establish time frames or milestones that
would enable it to assess progress toward achieving their action strategies for strengthening the
capacity and capability of the workforce. We also found that the requests for additional
acquisition workforce FTE staff identified in the OAM AHCP did not correspond to FY 2012
budget submissions at the individual bureaus; instead, the bureaus made their own decisions
about acquisition workforce needs.

A. Baseline Staffing Figures Provided by Bureaus Were Not Reconciled

As part of its acquisition workforce strategic planning process, OMB required agencies to
identify their current specialized workforce profile—including contracting officers, contract
specialists, procurement analysts, other staff with delegated procurement authority, and
contracting officer representatives—to better understand its composition. Each of these functions
plays an important role in the Department acquisition process (see appendix B for explanations
of the various acquisition workforce roles).

We found that OAM lacked complete support for how it developed the baseline figures
identifying the current size of the Department’s acquisition workforce. Although OAM relied on
a human resources report to arrive at its baseline number of contracting officers working in the
Department, the numbers did not match. OAM reported 258 contracting officers (job series 1102
and non-1102) working in the Department, while the human resources report provided as support
identified 196. Responsible OAM officials could not explain the difference.

Each bureau procurement office also submitted individual acquisition human capital plans
identifying their separate baseline acquisition workforce staffing figures. Table 1 lists individual
bureau counts of the number of Department employees working in each of four acquisition job
series, as well as a total number for each job series used by OAM as a baseline count in its FY
2010 acquisition human capital plan. We found significant differences between the bureau
figures and those developed by OAM. Bureau procurement offices identified 171 purchasing
agents, compared to 63 by OAM. Bureau procurement offices also identified 1,842 contracting
officer representatives, compared to 1,446 identified by OAM. OAM did not resolve these
differences through reconciliation or other means. According to an OAM representative, the
differences likely occurred because the bureaus used different procedures for making their
counts. Further, other than the Census Bureau office, the bureau procurement offices could not
provide documentation supporting their acquisition workforce baseline staffing numbers.
Without process controls over the maintenance of documentation and the reconciliation of
differences, OAM’s calculations of baseline staffing levels by job series may not be reliable.



                                                 3

U.S. Department of Commerce                                             Final Report No. OIG-12-015-A

Office of Inspector General                                                         December 21, 2011



B. Methodologies Used to Forecast                        Table 1. Verification of the
   Workforce Requirements Were
   Insufficient
                                                              Baseline Count
                                                                Contracting
OMB’s guidance outlines an acquisition                                           Job
                                                                   Officers
                                                 Bureau                        Series      COR        PM
workforce planning development process that                      (1102 and
                                                                                1105
                                                                 non-1102)
will provide a basis for addressing the
growth of the workforce and align with           Census                  31        34       285         4
bureau budget submissions. Each agency           NIST                    46         7       157         2
plan must reflect specific hiring needs for FY   NOAA                   155       128     1,100        28
2011 and serve as a component of the
                                                 OS                      21         -       117         5
agencies’ budget submission beginning with
the FY 2012 budget cycle. To assist bureaus      USPTO                   25         2       183         5
with developing a target acquisition             Total                  278       171     1,842        44
workforce profile, the Federal Acquisition       FY 2010 Plan         ( 258)     (63)    (1,446)      (44)
Institute developed and maintained an online                             20       108       396         0
                                                 Difference
toolkit with various projection methodologies
                                                 Source: FY 2010 Acquisition Human Capital Plan and
for use when conducting a workforce              Bureau Procurement Office FY 2010 Plans
analysis.

The Department’s process of forecasting future acquisition workforce requirements was not
adequate. We found that the assumptions and data OAM used in projections were incomplete,
raising concerns about the validity of the projected acquisition workforce requirements. First, as
previously mentioned, OAM did not start with a verifiable baseline identifying the current size of
the Department’s acquisition workforce. Next, rather than developing staffing projections by
individual bureau procurement offices—which would have highlighted specific differences
between its plans and the bureau plans—OAM projected staffing requirements only from a
Department-wide perspective.

The four operating bureaus that have procurement offices, along with the Office of the Secretary,
are decentralized and pursue different Department missions. While the Office of the Secretary
provides some acquisition services, it primarily sets policy and provides overall direction and
oversight. Accordingly, each bureau faces its own challenges in the volume, variety, and
complexity of its acquisitions.

In our opinion, there is great difficulty in developing a single methodology to apply across the
entire Department, given the differences in each operating bureau’s missions, acquisition
workforces, types of acquisitions, and existing acquisition processes. These factors affect how an
agency should develop a target acquisition workforce profile and project its workforce needs. For
example, the acquisition of research and development necessitates a different mix of skills and
workforce focus than the acquisition of products. Also, the development of various acquisition
approaches requires different skills; while fixed-price contracts require more planning up front,
the contract administration phase of such contracts is generally less complex. In contrast, cost-
type contracts require a broad range of skills throughout the acquisition life cycle. Skilled and
experienced pricing specialists are especially important, to project costs and help contracting
officers determine whether offered prices are fair and reasonable.



                                                 4

U.S. Department of Commerce                                           Final Report No. OIG-12-015-A

Office of Inspector General                                                       December 21, 2011



Furthermore, OMB required that AHCPs serve as the basis for budget preparation beginning in
FY 2012. The Department should have used OAM’s plan as the basis for reflecting operating
bureaus’ specific hiring needs. Instead, the bureau procurement offices developed their own
plans to reflect specific hiring needs in the FY 2012 budget. As previously mentioned, we found
significant differences between OAM’s AHCP count and those provided by the bureau
procurement offices. With the exception of the Census Bureau, the bureau procurement offices
did not maintain documentation detailing how they developed baseline figures identifying the
current size of the Department’s acquisition workforce. Without a reconciled baseline, there is no
assurance that the bureaus’ projected future workforce requirements are supportable. Also, the
methodologies used by the bureau procurement offices to forecast future acquisition workforce
requirements were incomplete and lacked consistency due in part to limited guidance from
OAM. Instead of using the recommended Federal Acquisition Institute toolkit, the bureau
procurement offices relied on their historical knowledge of the workload and current staff to
develop their forecast of future acquisition workforce requirements. OAM did not provide
guidance to the bureaus on how to determine their acquisition workforce needs, instead
(according to OAM representatives) leaving it to the discretion of the bureau procurement
offices.

C. Milestones or Time Frames Are Needed in Order to Measure Progress

OMB guidance required that each agency identify specific strategies and goals for increasing
both the capacity and capability of the workforce for the period ending in FY 2014. OAM’s
March 2010 AHCP included 32 action strategies to accomplish 10 program goals under the
following 4 broad categories:
    •	 Strategic Alignment and Planning (Workforce Analysis and Projections);
    •	 Building Capacity (Recruitment and Retention);
    •	 Building Capability (Training and Development); and
    •	 Accountability (Monitoring Performance).
However, we found that the action strategies were incomplete. Specifically, OAM did not:
   •	 Establish time frames or milestones that would enable them to assess progress toward
      achieving the program goals and strategies, or
   •	 Provide information on the status of the corrective action for 8 strategies.
Recognizing that the AHCP is a living document, a project plan with interim milestones would
help identify (a) tasks to accomplish, (b) resources required to accomplish elements of the plan,
(c) progress in meeting the tasks, and (d) scheduled completion dates. OAM has stated that it
reviews the AHCP periodically and updates information as necessary as a result of ongoing
efforts to meet projected workforce needs. A more complete plan that identifies time frames or
milestones for achieving the action strategies, however, would provide OAM with greater
assurance that it can meet the acquisition workforce needs and make informed decisions related
to improving the workforce.

OAM also established an informal working group comprised of representatives from each of the
bureau procurement offices, in collaboration with the Department’s Office of Human Resources


                                                5

U.S. Department of Commerce                                           Final Report No. OIG-12-015-A

Office of Inspector General                                                       December 21, 2011



Management and Finance. The working group meets quarterly to discuss the challenges of
implementing the action strategies and provide a quarterly progress update to each bureau
procurement office. However, we were unable to determine the progress for implementing the
action strategies, because no party had established time frames or milestones dates for the
strategies. An OAM representative acknowledged the unmeasured progress of these action
strategies—and that the action strategies are not receiving enough attention. Without managing
milestones or time frames for measuring the action strategies progress, OAM cannot reliably
measure whether the bureaus conducted strategies in a manner that enabled the Department to
reach intended goals and objectives.

Further, obstacles remain that limit the Department’s implementation of the action strategies.
Department officials cited fiscal constraints in FY 2010, coupled with the continuing resolution
and the additional workload of Recovery Act requirements, as impacting the Department’s
ability to achieve its goals and objectives. For instance, some action strategies, such as
developing and implementing a Department-wide acquisition intern program and determining
human capital metrics for the acquisition function, have been delayed until FY 2012.
Consequently, such fiscal constraints will limit the ability of the Department to achieve its
strategic goal of improving both the capacity and capability of its acquisition workforce. A more
complete plan that identifies time frames and milestones for achieving the action strategies
would provide OAM with a better basis for making informed decisions related to improving the
workforce and determining human capital plan priorities under constrained budgets.

D. FTE Numbers Contained in Budget Requests Were Prepared Without Coordination

OMB required the AHCP to reflect specific hiring needs and serve as a component of the
agency’s budget preparations beginning with the FY 2012 budget cycle. We found, however, that
the bureaus produced FTE numbers in their individual FY 2012 budget submissions without
regard to the OAM acquisition human capital plan. The lack of reconciled staffing baselines used
by OAM—along with methodologies used by the bureau procurement offices to forecast future
acquisition workforce requirements without regard to the OAM plan—point to a lack of
coordination throughout the process and raise questions over the reliability of bureau FTE
requests.

An OAM representative informed us that the office was unaware of how many additional FTEs
the bureaus requested—and that it did not have control or oversight over the bureaus budget
submissions. Procedures outlined in Department’s Budget Performance and Program Analysis
Handbook (December 2008) allows for offices within the Office of the Secretary to comment on
the bureau procurement offices’ budget submissions, even if not responsible for preparation. The
Deputy Assistant Secretary for Administration—also the Chief Acquisition Officer and Chief
Financial Officer—has Department-wide oversight responsibility for various administrative
functions, including acquisition, financial assistance, and human resources management. Since
the Director, OAM, reports directly to the Deputy Assistant Secretary for Administration—and is
also responsible for managing and enhancing career development of the Department's acquisition
workforce—the Director is further authorized to exercise discretion regarding the oversight of
bureau budget requests, including those identifying the need for additional acquisition workforce
FTEs.



                                                6

U.S. Department of Commerce                                            Final Report No. OIG-12-015-A

Office of Inspector General                                                        December 21, 2011



II.    Conclusion

OAM will need to continue to diligently manage the implementation of the acquisition

workforce planning initiative. Two of OAM’s responsibilities are to:

      •	 Provide appropriate oversight in procurement management, to help ensure that the
         Department’s program offices are effectively and efficiently managing procurement
         process; and
      •	 Manage and enhance career development of the Department's acquisition workforce.
In its oversight, however, OAM has relied heavily on voluntary information and coordination 

with the operating units’ procurement offices, without adequate controls. We found that OAM:

      •	 Routinely accepted information from the operating units’ procurement offices without
         verification and without requesting additional supporting data. OAM also did not follow
         up with the procurement offices to verify the reliability and accuracy of reported
         information (e.g., OAM did not reconcile the differences in baseline acquisition
         workforce staffing figures between the bureau procurement offices and its office).
      •	 Had limited or no documentation detailing how the Department developed baseline
         figures identifying the current size of the Department’s acquisition workforce. For
         example, OAM did not maintain sufficient documentation showing how the Department
         established the initial workforce baselines.
      •	 Did not capture information on how many additional FTEs the bureaus requested in their
         separate FY 2012 budget requests.

Recommendations

We recommend that the Director, OAM:

      1.	 Establish formal guidance and procedures for determining baseline staffing levels;

      2.	 Prescribe minimum documentation standards required by the bureaus’ procurement
          offices and OAM to support facts and figures contained in subsequent AHCPs;

      3.	 Work with each bureau to establish acquisition human capital goals and measure progress
          toward meeting those goals; and

      4.	 Work with the Office of Budget to access Departmental acquisition workforce budget
          data during the budget formulation process.




                                                  7

U.S. Department of Commerce                                           Final Report No. OIG-12-015-A

Office of Inspector General                                                       December 21, 2011



                      Summary of Department and OIG Comments
The OIG reviewed OAM’s response and considered it in preparing this final report. The OIG
stands by the findings; however we did work with OAM to revise recommendations.
Specifically, we worked directly with OAM to include an additional recommendation and
modify the draft recommendations related to (1) determining baseline staffing levels, (2)
establishing human capital goals and measuring progress, and (3) acquiring greater visibility into
the budget formulation process. The OIG has made other modifications to the report based on
information provided by OAM in its response and subsequent communications.

OAM communications subsequent to the formal response have demonstrated concurrence with
the recommendations. The formal response provides an explanation of issues identified and
includes additional updated information summarizing the steps OAM is taking to meet
acquisition human capital plan objectives.

We look forward to reviewing OAM’s action plan addressing the recommendations in greater
detail.




                                                8

U.S. Department of Commerce                                          Final Report No. OIG-12-015-A

Office of Inspector General                                                      December 21, 2011



                    Appendix A: Objectives, Scope, and Methodology

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. We performed our work under authority of the IG
Act of 1978, as amended, and Department Organizational Order 10-13, dated August 31, 2006.

Our audit, between October 2010 and July 2011, entailed field work at the five bureau
procurement offices including: the Office of the Secretary in Washington, DC; the U.S. Census
Bureau in Suitland, Maryland; the National Institute of Standards and Technology in
Gaithersburg, Maryland; the National Oceanic and Atmospheric Administration in Silver Spring,
Maryland; and the U.S. Patent and Trademark Office in Alexandria, Virginia. To accomplish our
audit objectives, we:

   •	 Reviewed the methods used by the bureau procurement offices to prepare the FY
      2010 AHCP for FYs 2010–2014. We assessed those methods against the acquisition
      workforce guidance provided by OMB, acquisition workforce criteria in the Commerce
      Acquisition Manual, and other applicable Departmental and federal regulations and
      guidance. At the time of this audit report, OAM had provided the FY 2011 update to the
      AHCP, but we limited the use of the update when preparing this report.

   •	 Interviewed a range of staff involved in acquisition workforce planning, including
      the OAM Procurement Executive, Director of Acquisition Workforce and Policy, and
      procurement analysts; bureau procurement offices procurement analysts; and Office of
      the Secretary budget staff.

   •	 Analyzed documentation used to support the submission of the FY 2010 AHCP,
      including the plan prepared by the bureau procurement offices.

   •	 Reviewed and analyzed the FY 2012 budget documentation submitted by the
      Department to OMB for the President’s Budget to determine whether the bureau
      procurement offices requested funding for the projected increases in contracting staff.

We obtained an understanding of the internal controls of the processes used to prepare and
submit the FY 2010 AHCP by interviewing the procurement analyst staff at the bureau
procurement offices and assessing their adherence to the requirements in Commerce Acquisition
Manual 1301.6, Department of Commerce Acquisition Career Management Program, June 2009.
While we identify and report on internal control deficiencies, we detected no incidents of fraud,
illegal acts, violations, or abuse within our audit. We identified weaknesses in the controls
related to the processes and procedure used to prepare the initial acquisition workforce plan. We
did not rely on computer-processed data to draw our conclusions or to perform this audit.




                                                9

U.S. Department of Commerce                                          Final Report No. OIG-12-015-A

Office of Inspector General                                                      December 21, 2011



                     Appendix B: Acquisition Workforce Definitions

Definitions of the six key acquisition workforce positions identified in the AHCP include:

   •	 Probably the most significant role, the Contracting Officer is responsible for ensuring
      performance of all contracting actions, compliance with the terms of the contract, and
      safeguarding the interests of the government in contractual relationships; managing,
      supervising, and performing professional work involving the procurement of supplies,
      services, construction, or research and development using formal advertising or
      negotiated procedures; having knowledge of pre- and postaward procedures to plan and
      conduct the contracting process from the description of the requirements through contract
      delivery; and evaluating contract price proposals, as well as administering, terminating,
      and closing out contracts.

   •	 Contract Specialists manage, supervise, and perform professional work involving the
      procurement of supplies, services, construction, or research and development using
      formal advertising or negotiated procedures; have knowledge of pre- and postaward
      procedures to plan and conduct the contracting process from the description of the
      requirements through contract delivery; and evaluate contract price proposals, as well as
      administer, terminate, and close out contracts.

   •	 Procurement Analysts manage all procurement policies and procedures within the
      Department and consistently analyze and evaluate procurement programs to ensure
      compliance with Departmental policies and programs.

   •	 Noncontracting Officers with Delegated Contracting Authority serve a critical role
      within the Department by performing contracting duties, such as the procurement of
      supplies and services, in addition to their mission-related responsibilities.

   •	 Contracting Officer Representatives ensure compliance with technical and program
      requirements for the Department’s acquisitions. They perform specific contract
      management duties related to acquisition planning, contract administration, technical
      oversight, and contract close-out to ensure the contractor’s performance meets the
      standards set forth in the contract.

   •	 Program/Project Managers are assigned to programs or projects considered major
      investments as defined in Office of Management and Budget Circular A-11, Part 7,
      Exhibit 300, Planning, Budgeting, Acquisition, and Management of Capital Assets.
      Program/Project Managers ensure the Department’s investments are managed and
      evaluated effectively; and develop requirements, manage performance, and provide
      technical direction for major investments.



Source: The Commerce Fiscal Year 2010 Acquisition Human Capital Plan




                                               10

U.S. Department of Commerce                                Final Report No. OIG-12-015-A

Office of Inspector General                                            December 21, 2011



                      Appendix C: Response to OIG’s Draft Report




                                          11

U.S. Department of Commerce         Final Report No. OIG-12-015-A

Office of Inspector General                     December 21, 2011





                              12

U.S. Department of Commerce         Final Report No. OIG-12-015-A

Office of Inspector General                     December 21, 2011





                              13

U.S. Department of Commerce         Final Report No. OIG-12-015-A

Office of Inspector General                     December 21, 2011





                              14

U.S. Department of Commerce                                                        Final Report No. OIG-12-015-A

Office of Inspector General                                                                    December 21, 2011 


           underway or to be implemented, with goals like creating a mission statement. which
           changes less frequently. addressed only when updates are made.

           FTE Numbers Contained in Budget Requests Were Prepared Without Coordination
           Lastly, the draft report states that the Bureaus produced FTE numbers in their individual FY
           2012 budget submissions without regard to the Departmental AHCP. While, OFPP's
           guidance requires the AHCP to serve as a component in the FY 2012 budget submission,
           historically, the Office of Acquisition Management does not receive Bureau budget
           submissions and has never had input in what is captured in those budgets. In addition,
           budget submissions typically do not illustrate individual office's FTE allotments and
           therefore, requesting to review them in an effort to determine whether the number of
           projected FTEs for FY12 was Included, would not have been possible.

           OAM request that the OIG considers the comments provided and revise the report where
           appropriate. We also request acknowledgment that as a living document, the AHCP is
           reviewed periodically and information updated as necessary as a result of ongoing efforts to
           meet projected workforce needs. Consequently, workforce needs In staffing. training and
           development are routinely assessed and adjustments are made as additional infonnation
           develops and circumstances change.




                                                                                                     1200000-102 



                                                        15

